                  CLOSEOUT MEMORANDUM FOR M-97120049
        On 19 December 1997, an NSF program director' brought us an allegation that a subject2
failed to share data he had collected under an NSF SGER award.3 The program director
explained that, prior to the subject's receipt of the SGER award, he had submitted an NSF
proposal,4 as the sole PI, that included the collection of data at a special upcoming event5
followed by the extensive analysis and interpretation of these data. The proposal, which was to
be recommended for funding, was withdrawn by the subject when he learned he had been denied
tenure and would be leaving the institution in less than a year. The program director urged the
subject to submit a SGER proposal to allow him to, minimally, collect the data, which he did
with two co-PIS from the institution. However, the program director learned that, after the
subject collected the data, he left the institution and took most of these data with him. He
allegedly refused requests to provide these data to the institution or to the co-PIS on the SGER
award.

         The program director explained that, initially, she attempted to assist the institution in
obtaining these data from the subject, but was unsuccessful. The final report for the SGER
award, prepared and submitted by the co-PIS, described several problems encountered with
respect to these data. First, the subject offered to copy the data tapes and provide the copies to
the institution if it agreed to provide the necessary equipment for him to make copies. The
institution elected not to risk sending the necessary equipment to the subject. Second, the subject
was apparently uniquely qualified to do the analysis phase of this project; there was no one else
available at the institution who was qualified to do this phase of the project. Third, the
institution learned after the data had been collected that there were legal concerns regarding the
use of some of these data. Apparently the subject and one of the co-PIS had made oral
arrangements to collect and use these data, but had not received official written permission to do
so from the event organizers. Because some of these data had commercial value, there was
considerable uncertainty over how and what portions of these data could be used.

        The institution owns these data but, according to the program officer and the final report,
has chosen not to pursue their return because of 1) the expense to copy, 2) the difficulty in
finding someone qualified to analyze these data, and 3) the unresolved legal concerns for the use
of these data. Because not all the obligated funds for this award had been spent, we verified that
NSF had de-obligated the unused funds.6

        Although the subject has still not shared these data with the institution or the co-PIS, it is
the institution that has chosen not to take the steps necessary to obtain these data following the
subject's offer to make copies.




                                      Footnotes Redacted




                                             Page 1 of 2
                    CLOSEOUT MEMORANDUM FOR M-97120049
       This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                           Page 2 of 2                   M 97-49



                                                                     -             -   -
